                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




                                        Independent Auditors’ Report


The Public Printer
United States Government Printing Office:

We have audited the accompanying consolidated balance sheets of the United States Government Printing
Office (GPO) as of September 30, 2011 and 2010, and the related consolidated statements of revenues,
expenses, and changes in retained earnings and cash flows (hereinafter referred to as “consolidated
financial statements”) for the years then ended. The objective of our audits was to express an opinion on
the fair presentation of these consolidated financial statements. In connection with our fiscal year 2011
audit, we also considered GPO’s internal control over financial reporting and tested GPO’s compliance
with certain provisions of applicable laws, regulations, and contracts that could have a direct and material
effect on these consolidated financial statements.

Summary
As stated in our opinion on the consolidated financial statements, we concluded that GPO’s consolidated
financial statements as of and for the years ended September 30, 2011 and 2010, are presented fairly, in all
material respects, in conformity with U.S. generally accepted accounting principles.

Our consideration of internal control over financial reporting resulted in identifying certain deficiencies
that we consider to be significant deficiencies, as defined in the Internal Control over Financial Reporting
section of this report, as follows:

    A.      Controls over Processing and Maintenance of Human Resource and Payroll Information
    B.      Information Technology General and Application Controls

We did not identify any deficiencies in internal control over financial reporting that we consider to be
material weaknesses as defined in the Internal Control over Financial Reporting section of this report.

The results of our tests of compliance with certain provisions of laws, regulations, and contracts disclosed
no instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards, issued by the Comptroller General of the United States.

The following sections discuss our opinion on GPO’s consolidated financial statements; our consideration
of GPO’s internal control over financial reporting; our tests of GPO’s compliance with certain provisions
of applicable laws, regulations, and contracts; and management’s and our responsibilities.

Opinion on the Financial Statements
We have audited the accompanying consolidated balance sheets of the United States Government Printing
Office as of September 30, 2011 and 2010 and the related consolidated statements of revenues, expenses,
and changes in retained earnings and cash flows for the years then ended.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the United States Government Printing Office as of September 30, 2011
and 2010, and the results of its operations and its cash flows for the years then ended, in conformity with
U.S. generally accepted accounting principles.

Our audits were conducted for the purpose of forming an opinion on the consolidated financial statements
taken as a whole. The information in the Management’s Discussion and Analysis section is presented for
purposes of additional analysis and is not required as part of the consolidated financial statements. This
information has not been subjected to auditing procedures and, accordingly, we express no opinion on it.

Internal Control over Financial Reporting
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
Responsibilities section of this report and was not designed to identify all deficiencies in internal control
over financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our
fiscal year 2011 audit, we did not identify any deficiencies in internal control over financial reporting that
we consider to be material weaknesses, as defined above. However, we identified certain deficiencies in
internal control over financial reporting described in Exhibit I that we consider to be significant
deficiencies in internal control over financial reporting. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance.

Exhibit II presents the status of prior year significant deficiencies.

We noted certain additional matters that we have reported to management of GPO in a separate letter.

Compliance and Other Matters
The results of our tests of compliance as described in the Responsibilities section of this report disclosed
no instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards.

                                                  *******

Responsibilities
Management’s Responsibilities. Management is responsible for the consolidated financial statements;
establishing and maintaining effective internal control; and complying with laws, regulations, and contracts
applicable to GPO.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2011 and 2010
consolidated financial statements of GPO based on our audits. We conducted our audits in accordance with
auditing standards generally accepted in the United States of America; and the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States. Those standards require that we plan and perform the audits to obtain reasonable assurance
about whether the consolidated financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
GPO’s internal control over financial reporting. Accordingly, we express no such opinion.
An audit also includes:

•     Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
      financial statements;
•     Assessing the accounting principles used and significant estimates made by management; and
•     Evaluating the overall consolidated financial statement presentation.
We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2011 audit, we considered GPO’s internal control over financial
reporting by obtaining an understanding of GPO’s internal control, determining whether internal controls
had been placed in operation, assessing control risk, and performing tests of controls as a basis for
designing our auditing procedures for the purpose of expressing our opinion on the consolidated financial
statements, but not for the purpose of expressing an opinion on the effectiveness of GPO’s internal control
over financial reporting. Accordingly, we do not express an opinion on the effectiveness of GPO’s internal
control over financial reporting.

As part of obtaining reasonable assurance about whether GPO’s fiscal year 2011 consolidated financial
statements are free of material misstatement, we performed tests of GPO’s compliance with certain
provisions of laws, regulations, and contracts, noncompliance with which could have a direct and material
effect on the determination of the consolidated financial statement amounts. We limited our tests of
compliance to the provisions described in the preceding sentence, and we did not test compliance with all
laws, regulations, and contracts applicable to GPO. However, providing an opinion on compliance with
laws, regulations, and contracts was not an objective of our audit and, accordingly, we do not express such
an opinion.

                                   ______________________________

GPO’s responses to the findings identified in our audit are presented in Exhibit I. We did not audit GPO’s
responses and, accordingly, we express no opinion on them.

This report is intended solely for the information and use of GPO’s management, GPO’s Office of
Inspector General, the U.S. Government Accountability Office, and the U.S. Congress and is not intended
to be and should not be used by anyone other than these specified parties.




December 16, 2011
                                                                                      Exhibit I

                          Fiscal Year 2011 Significant Deficiencies



A. Controls over Processing and Maintenance of Human Resource and Payroll
   Information

We noted the following areas where the United States Government Printing Office (GPO) needs
to improve its internal controls over processing and maintenance of human resource and payroll
information:

a. We noted that 35 of 120 employees tested during the year were nominated and approved
   for a goal sharing payment. Of the 35, we noted 1 employee never received the goal
   sharing award of $100 even though the employee was approved and included on the list
   of approved awardees that was sent to the National Finance Center (NFC), GPO’s
   payroll/personnel service provider, for payments.

b. We noted 24 of 120 balances tested where the annual leave balance recorded in Web Time &
   Attendance (WebTA) did not agree to the annual leave balance recorded by the NFC, which
   is reflected on the employee’s Statement of Earning and Leave. WebTA is GPO’s web-based
   time and attendance program which employees use to enter and keep track of their hours
   worked and leave used. GPO management detected and corrected the errors during the year
   for 21 of the 24 exceptions. However, for the remaining 3 employees tested, 2 had balances
   that were not detected or corrected by management as of September 30, 2011, resulting in an
   incorrect leave balance recorded at year end, and 1 employee separated from the agency in
   July 2010 with the incorrect leave balance.

c. We noted for 2 of 72 personnel files reviewed that the GPO payment plan reflected on
   the Standard Form (SF)-50, Notification of Personnel Action, did not agree to the GPO
   payment plan reflected on the SF-52, Request/or Personnel Action, maintained in the
   employee's personnel file. However, we noted that in each of these instances the
   employee’s rates of pay reflected on the SF-50 and SF-52 were in agreement with the
   amount being processed by NFC for the pay period tested.

d. Of the 120 WebTA sheets reviewed, we identified 8 instances where the WebTA sheet
   was certified by a person not listed on the list of approved supervisors. Additionally, no
   evidence was made available to verify that the individuals who certified the timesheets
   had been delegated that authority by an approved supervisor or that the supervisor had
   reviewed the timesheet in the following period for reasonableness.

The Government Accountability Office’s (GAO) Standards for Internal Control in the Federal
Government requires the following:

•   Control activities are the policies, procedures, techniques, and mechanisms that enforce
    management’s directives, such as the process of adhering to requirements or budget
    development and execution. They help ensure that actions are taken to address risks. Control
    activities are an integral part of an entity’s planning, implementing, reviewing, and
    accountability for stewardship of government resources and achieving effective results.
                                                                             Exhibit I (continued)

                            Fiscal Year 2011 Significant Deficiencies

•   Control activities occur at all levels and functions of the entity. They include a wide
    range of diverse activities such as approvals, authorizations, verifications,
    reconciliations, performance reviews, maintenance of security, and the creation and
    maintenance of related records which provide evidence of execution of these
    activities as well as appropriate documentation. Control activities may be applied in a
    computerized information system environment or through manual processes.

•   Transactions should be promptly recorded to maintain their relevance and value to
    management in controlling operations and making decisions. This applies to the entire
    process or life cycle of a transaction or event from the initiation and authorization through its
    final classification in summary records. In addition, control activities help to ensure that all
    transactions are completely and accurately recorded.

The causes of the conditions above were deficiencies in the operating effectiveness of internal
controls to ensure all information processed is properly reviewed for accuracy and
reasonableness.

Recommendations:

We recommend that GPO strengthen its controls over the processing and maintenance of human
resource and payroll information as follows:
1. Perform a review of all information uploaded to NFC to verify that the upload was successful
   and accurate.

2. Develop and implement Standard Operating Procedures detailing how to correctly enter leave
   adjustments in the WebTA system and the NFC mainframe.

3. Develop and implement policies and procedures for payroll personnel to reconcile annual
   leave balances per WebTA to NFC to ensure that leave hours are properly accrued and that
   the annual leave balance is correct at the end of each pay period.

4. Improve communication with NFC to ensure that: a) the GPO payment plan information
   reflected on the SF·50's maintained in employee personnel files are accurate; and b)
   employee pay plans provided to NFC agrees with employee actions and their personnel
   file.

5. Develop and implement policies and procedures over the maintenance of authorized and
   approved Web Time & Attendance certifiers. Policies and procedures should be
   established to prevent inappropriate delegations of certifying authority. In addition, all
   approved delegates should be properly trained and able to determine the reasonableness
   of hours and/or expenses which they are certifying.

Management Response:

Management concurs with these recommendations and has already worked to implement a
corrective action plan.
                                                                            Exhibit I (continued)

                            Fiscal Year 2011 Significant Deficiencies

B. Information Technology General and Application Controls

During fiscal year 2011, deficiencies in the design and/or operations of GPO’s information
technology (IT) general and application controls were noted in the areas of Security Management,
Access Controls, Segregation of Duties, Configuration Management, and Contingency Planning.
These conditions were generally due to resource constraints and competing priorities at GPO.
The details of these conditions, several of which have been reported to management in prior
years’ audit reports, are as follows:

1. Security Management
GPO made progress in fiscal year 2011 to formalize its established information security
objectives and high level policy. However, we noted that although GPO had previously
completed the security assessment and authorization process for both the GPO Business
Information System (GBIS) and the GPO General Support System (GSS), GBIS operated without
a current security authorization since May 2010 when the Interim Authorization to Operate
(IATO) for GBIS expired. Also, the following exceptions were observed during our test work:

    i.   For both GSS and GBIS, System Security Plans and Risk Assessment Reports did not
         include IT security controls that were equivalent to the high impact control baseline from
         the National Institute of Standards and Technology (NIST) Special Publication (SP) 800-
         53, Recommended Security Controls for Federal Information Systems and Organizations.

    ii. For GBIS and the GSS, security assessment testing did not include a population of IT
        security controls equivalent to the high impact control baseline from NIST SP 800-53.

Operating an application in production without a current security authorization increases the risk
that since the previous security assessment and authorization, the current state of the system, its
controls or the environment it operates in will have changed to the point that the system security
plan no longer describes the system’s current controls or plans necessary controls, and the
security assessment no longer considers the full range of significant risks to which the system is
subject.

Incomplete system security plans may lead to incomplete security assessment testing that does
not include all necessary IT security controls and does not document test procedures and results
for all necessary IT security controls. Not performing security assessment testing of all necessary
IT security controls, increases the risk that control gaps or weaknesses will not be detected and
corrected or be mitigated with compensating controls. This may lead to necessary controls not
being included in system security plans. The resulting control gaps may subject data and
resources to unauthorized use, loss, or disclosure.

Additionally, not documenting system security plans in detail sufficient to plan IT controls that
are identical or equivalent to the applicable NIST SP 800-53 baseline controls may lead to gaps in
system security planning, and more specifically, may lead to the GPO not planning and
implementing IT security controls that are equivalent or identical to those recommended by NIST
SP 800-53.
                                                                           Exhibit I (continued)

                           Fiscal Year 2011 Significant Deficiencies

2. Access Controls

 Overall, access controls at GPO continue to require strengthening in order to provide a more
secure financial processing and computing environment. GPO management made progress in
addressing the access control deficiencies noted in prior years. However, we noted the following
access controls deficiencies that need improvement:
a. User access was not consistently removed after users left GPO or changed job duties:

       i.   Of a sample selection of 15 separated GPO personnel, 3 retained access to GPO’s
            Active Directory network.

b. Periodic reviews of user access were not consistently documented:

       i.   The GPO Finance Office lacks documented evidence of a monthly GBIS user access
            review and recertification. On a monthly basis, IT Security sent user access lists to
            the Finance Office for review. However, the Finance Office did not retain evidence
            of its reviews.

      ii.   There is no process in place to document a periodic review of GPO GSS users.

c. Audit logs at the application level for GBIS are not reviewed.

Access controls should provide reasonable assurance that computer resources (data files,
application programs, and computer-related facilities and equipment) are protected against
unauthorized access, modification, disclosure, loss, or impairment. Not timely removing
accounts for separated users increases the risk that unauthorized users will gain access to
information systems.

Not consistently documenting periodic reviews of user access increases the risk that users who no
longer require access will retain access.

With no audit log reviews done at the application level for GBIS, events within the application
that may represent attempts to gain unauthorized access or otherwise circumvent controls may not
be detected and responded to.

3. Segregation of Duties

Effective segregation of duties starts with effective entity-wide policies and procedures that are
implemented at the system and application levels. Although Finance Office segregation of duties
procedures document conflicting activities within GBIS, the procedures are not sufficiently
detailed to identify which roles within GBIS are considered to be conflicting. Not identifying
conflicting roles within GBIS may lead to GBIS users having conflicting access to this key
financial system, which could result in a user having end-to-end control over a transaction such
that they could both initiate and approve an erroneous transaction.

4. Configuration Management

GPO does not centrally manage the security patching of Microsoft Windows desktops and
laptops. Desktop and laptop computers without current security patches may not be properly
                                                                           Exhibit I (continued)

                           Fiscal Year 2011 Significant Deficiencies

safeguarded from security vulnerabilities. As a result, vulnerabilities may be exploited and data
and resources may be subject to unauthorized use, loss, or disclosure.

GPO Information Technology and Systems (IT&S) management has implemented a process for
centrally managing patching for Microsoft Windows servers using Microsoft Windows Server
Update Services (WSUS). GPO’s first priority was to implement the patch management process
for these servers. However, GPO has not yet created standard operating procedures for
desktop/laptop patch management and has not yet expanded its centralized Microsoft Windows
patch management process to include desktops and laptops.

5. Contingency Planning

The contingency plan for GPO’s GSS has not been finalized, approved or tested, and is still in
draft form. GPO may not be able to successfully recover critical applications and systems to
maintain business functions during the event of a service disruption, without an effective
contingency plan and testing process in place. Without documented contingency plan test results,
management may be unaware of any weaknesses in disaster recovery capabilities that could have
been revealed by disaster recovery testing.
Federal Information Processing Standards (FIPS) Publication 200, Minimum Security
Requirements for Federal Information and Information Systems, requires organizations to
authorize the operation of organizational information systems.

NIST SP 800-53, Revision 3, Recommended Security Controls for Federal Information Systems
and Organizations, provides more detailed guidance for the security authorization process and
directs organizations to:

•   Develop security plans for information systems that describe the security controls in place or
    planned for meeting the control requirements from SP 800-53 including rationale for control
    tailoring and supplementation decisions, and

•   Assess the planned security controls to determine the extent to which the controls are
    implemented correctly, operating as intended, and producing the desired outcome and to
    document the results of the assessment to provide to the authorizing official.

NIST SP 800-53, Revision 3, Recommended Security Controls for Federal Information Systems
and Organizations, provides guidance for managing access controls and directs organizations to:

•   Operate procedures for disabling and removing access when users are terminated, transferred,
    or information system usage or need-to-know/need-to-share changes;

•   Periodically review accounts;

•   Implement separation of duties through assigned information system access authorizations;
    and

•   Review and analyze information system audit records for indications of inappropriate or
    unusual activity and report findings to designated organizational officials.
                                                                            Exhibit I (continued)

                           Fiscal Year 2011 Significant Deficiencies

NIST SP 800-53, Revision 3, Recommended Security Controls for Federal Information Systems
and Organizations, states that organizations should remediate vulnerabilities by maintaining a
process to install security patches.

In addition, NIST SP 800-53, Revision 3, Recommended Security Controls for Federal
Information Systems and Organizations, states that organizations should develop contingency
plans for their information systems that are reviewed and approved by designated officials,
should test to determine the plans’ effectiveness, should review the contingency plan test
results, and initiate corrective actions.

Recommendations:
We recommend that GPO continue to strengthen its IT general and application controls in each of
the five identified domains, as follows:
1. Security Management
   We recommend that GPO management ensure that:

   a. GPO documents system security plans and risk assessments in detail sufficient to plan
      system security controls for general support systems and major applications that are
      equivalent to the NIST SP 800-53 high-impact baseline controls.

   b. Security assessment testing used to support decisions to authorize systems for operation
      covers all planned system security controls at the point of initial authorization and at least
      once every three years thereafter, and includes descriptions of the test procedures
      performed and the results obtained.

   c. The GBIS application is re-authorized to operate.

2. Access Controls

We recommend that GPO management ensure that:

   a. The sign out process for removing system access from separated personnel is evaluated,
      revised as necessary, and formally documented to help ensure that system access is
      removed at the time personnel leave GPO.

   b. A periodic review of users with access to the GPO GSS is implemented.

   c. Procedures for periodically reviewing and recertifying access to GPO systems, including
      GBIS, are evaluated, revised as necessary, and formally documented to help ensure that
      access is reviewed on a periodic basis and that the review is documented.

   d. GPO designs and implements a risk-based approach to reviewing application audit log
      events for GBIS.
                                                                          Exhibit I (continued)

                           Fiscal Year 2011 Significant Deficiencies

3. Segregation of Duties

We recommend that GPO management revise procedures for maintaining segregation of duties
within GBIS so that the procedures include sufficient detail to identify conflicting roles within
GBIS.

4. Configuration Management

We recommend that GPO management ensure that:

    a. IT&S completes the development of centrally managed desktop and laptop patch
       management procedures to help ensure that security patches are deployed to desktop and
       laptop computers in a timely manner.

    b. IT&S documents standard operating procedures for desktop and laptop patch
       management.

5. Contingency Planning
We recommend that GPO management:

    a. Finalize and approve the contingency plan for GPO’s GSS.

    b. Periodically perform contingency plan testing, document the test plans and results, and
       take appropriate corrective action based on the results, if necessary, for GPO’s GSS.

Management Response:

Management concurs with these recommendations and is in the process of implementing a
corrective action plan.
                                                                                               Exhibit II

                                  Status of Prior Year Findings



                                                                                          Status as of
    Prior Year                                 Prior Year
                                                                                         September 30,
    Condition                              Recommendation
                                                                                             2011

                                           Significant Deficiencies

A. Controls over     We recommended that GPO strengthen its internal control           Closed
   Preparation,      over the preparation, review and approval of special journal
   Review, and       entries by :
   Approval of       1. Requiring that GPO personnel responsible for preparing an
   Special Journal       entry (1) gather the necessary facts and supporting
   Entries               documentation to fully understand the entry that they are
                         preparing; and (2) perform a self-review over the entry
                         prior to submitting it for approval to ensure that the proper
                         accounts, cost codes, function codes, and amounts are used
                         for the journal entries.

                     2. Developing standard operating procedures documenting
                         the requirements and instructions for supervisors
                         reviewing journal entries including: (1) which supervisors
                         are qualified to review certain types of special journal
                         entries that impact certain areas (i.e., for all entries that
                         impact fixed assets, the Chief of Property and Accounting
                         must approve); (2) what information should be verified
                         before the entry can be approved; and (3) the type of
                         documentation that is considered to be sufficient to
                         support/justify the basis for the entry.
B. Controls over     We recommended that GPO strengthen its controls over the            Significant
   Processing and    processing and maintenance of human resource and payroll            Deficiency
   Maintenance of    information as follows:                                             This finding has
   Human             1. Improve controls within the Human Capital Office and the         been partially
   Resource Data         Finance Department to ensure that only employees who            repeated in FY
                         are eligible to participate in GPO’s annual goal sharing        2011; see
                         program pursuant to GPO Directive 665.22 receive annual         Exhibit I.
                         goal sharing payments.

                     2. Improve its internal controls to ensure that GPO payment
                        plan information reflected on the SF-50s maintained in
                        employee personnel files are accurate; and employee
                        service dates reflected in WebTA agree with employee
                        service dates reflected in NFC records and the SF-52
                        maintained in the employee’s personnel file.

                     3. Develop Standard Operating Procedures detailing how to
                        correctly enter leave adjustments in the WebTA system
                        and the NFC mainframe.

.
                                                                                              Exhibit II

                                   Status of Prior Year Findings



                                                                                         Status as of
    Prior Year                                 Prior Year
                                                                                        September 30,
    Condition                               Recommendation
                                                                                            2011

                      4. Develop a report based on information from NFC that can
                         be run bi-weekly that will identify any change made to an
                         employee’s record subsequent to the initial interface with
                         NFC.

                    5. Implement a control where payroll personnel reconcile the
                        annual leave balances per WebTA to NFC ensuring that
                        the proper numbers of hours are being accrued per pay
                        period and that the annual leave balance is correct.
C. Information Technology General and Application Controls

1. Security           We recommended that GPO management document its system            Significant
   Management         security plans in detail sufficient to plan system security       Deficiency
                      controls for general support systems and major applications       This finding has
                      that are identical or equivalent to the applicable NIST SP 800-   been partially
                      53 baseline controls. In addition, we recommended the             repeated in FY
                      following:                                                        2011; see
                                                                                        Exhibit I.
                      a. GPO management document its risk assessments and
                         considers a full range of significant risks to be consistent
                         with risk assessment requirements from NIST SP 800-30.
                         Also, we recommended that when creating a security
                         authorization package, GPO document procedures
                         performed and results obtained for security assessment
                         testing of all planned IT security controls. Additionally,
                         we recommended that GPO update the security
                         authorization package for the GSS and, after planning and
                         successfully testing the necessary IT security controls, re-
                         authorizes it for operation.
                      b. GPO management document and implement procedures to
                         identify all personnel with significant information security
                         responsibilities and ensure that they receive periodic role-
                         based IT security training.
                      c. GPO request that Oracle amend the scope of the SAS-70
                         report for Oracle On-Demand to include the Federal Zone
                         where the servers for GBIS are hosted.
2. Access Controls    We recommended that GPO management:                               Significant
                                                                                        Deficiency
                      a. Evaluate, revise as necessary, and formally document
                                                                                        This finding has
                         procedures for approving access to the GSS and GBIS to
                                                                                        been partially
                         help ensure that approvals are documented prior to
                                                                                        repeated in FY
                         granting users access.
                                                                                        2011; see
.
                                                                                            Exhibit II

                                 Status of Prior Year Findings



                    b. Ensure that controls for removing system access from           Exhibit I.
                       separated contractors, including the periodic contractor
                       network access review and setting contractor network user
                       accounts to expire, are consistently operated for all
                       contractors with access to GPO’s network.

                    c. Evaluate, revise as necessary and formally document
                       procedures for periodically reviewing and recertifying
                       access to GPO systems to help ensure that access that
                       users do not need is removed timely.

                    d. Restrict access to applications and systems, including the
                       GBIS rate maintenance responsibility, to personnel based
                       on defined roles and responsibilities. Access should be
                       removed from user access accounts that do not require
                       such access.

                    e. Enhance its policies and procedures over password
                       settings. With the exception of system service accounts,
                       management should ensure that password expiration
                       settings are applied to all users’ network accounts.

                    f.   Design and implement a risk-based approach to reviewing
                         application audit log events for GBIS.

                    g. Consistently perform and document a periodic review and
                       recertification of the data center physical access list. The
                       review and certification should be performed and
                       documented, at a minimum, on a quarterly basis.
3. Segregation of                                                                     Significant
                    We recommended that GPO management document the
   Duties                                                                             Deficiency
                    permissions used within GBIS, identify which permissions
                                                                                      This finding has
                    conflict, and ensure that conflicting permissions are not
                                                                                      been repeated in
                    assigned to the same user.
                                                                                      FY 2011; see
                                                                                      Exhibit I.
4. Configuration    We recommended that GPO management :                              Significant
   Management                                                                         Deficiency
                    a. Take steps to ensure that emergency changes to GBIS are        This finding has
                       approved and are tested as soon as possible after              been partially
                       implementation into production.                                repeated in FY
                                                                                      2011; see
                                                                                      Exhibit I.
                    b. Complete the development of centrally managed desktop
                       and laptop patch management procedures to help ensure
                       that security patches are deployed to desktop and laptop
                       computers in a timely manner. We also recommended that
                       GPO document its standard operating procedures for patch
.
                                                                                   Exhibit II

                             Status of Prior Year Findings



                    management.
5. Contingency                                                                Significant
                 We recommended that management:
   Planning                                                                   Deficiency
                 a. Finalize and approve the contingency plan for GPO         This finding has
                    General Support System Number 1.                          been repeated in
                 b. Periodically perform contingency plan testing and         FY 2011; see
                    document the test plans and the results for GPO General   Exhibit I.
                    Support System Number 1.




.
